OFFICE OF INSPECTOR GENERAL




 SEMIANNUAL REPORT TO THE CONGRESS
                                                              Number 22




              OCTOBER 1, 1999 TO MARCH 31, 2000




      NATIONAL ENDOWMENT FOR THE HUMANITIES

        "Democracy demands wisdom and vision in its citizens"
  -    National Foundation on the Arts and the Humanities Act of 1965
                     Phone 202/606-8350 Fax 202/606-8329 E-mail oig@neh.fed.us



                                               April 26, 2000



Honorable William R. Ferris
Chairman
National Endowment for the Humanities
Washington, DC 20506

Dear Chairman Ferris:

Enclosed is the Semiannual Report for the Office of Inspector General (OIG) for the period
October 1, 1999 – March 31, 2000. The report, which is required by the Inspector General Act as amended,
provides an overview of the activities of the OIG during this six-month period. The Act requires that you
transmit this report, with your Report of Final Action, to the appropriate congressional committees within 30
days of its receipt.

During this reporting period we issued the final reports of our Limited Review of the Peer Review Process.
While we made several recommendations, we found the process was working in a satisfactory manner. The
NEH awards are based on a reasonable and impartial criteria fairly applied throughout the programs.

I look forward to continuing working with you and agency managers, the NEH employees Union, Congress,
and NEH's various stakeholders to help ensure that NEH delivers the grant awards in an economical and
efficient manner.

I appreciate your support for the OIG.


                                                 Sincerely,




                                                 Sheldon L. Bernstein
                                                 Inspector General




Enclosure
                                                 TABLE OF CONTENTS


LETTER TO THE CHAIRMAN

REPORTING REQUIREMENTS

INTRODUCTION................................................................................................................................   1

AUDIT, SURVEY, AND INSPECTION ACTIVITIES ..........................................................................                            2

INVESTIGATION ACTIVITY ..............................................................................................................          6

OTHER ACTIVITIES ..........................................................................................................................    8

TABLE I - INSPECTOR GENERAL-ISSUED REPORTS ..................................................................                                  10
WITH QUESTIONED COSTS

TABLE II - INSPECTOR GENERAL-ISSUED REPORTS WITH.......................................................                                        10
RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

GLOSSARY OF AUDIT TERMINOLOGY..........................................................................................                        11
                                  REPORTING REQUIREMENTS

The Inspector General Act of 1978, as amended (Public Law 100-504), specifies reporting requirements for
semiannual reports. The requirements are listed and cross-referenced to the applicable pages in this report.



Citation                Reporting Requirements                                                        Page

Section 4(a)(2)         Regulatory and Legislative Reviews…………………………………………………                            9

Section 5(a)(1)         Significant Problems, Abuses, and Deficiencies……………………………………                     ∗

Section 5(a)(2)         Recommendations for Corrective Action ………………………………………….                          ∗

Section 5(a)(3)         Prior Significant Recommendations Unimplemented…………………………….                      *

Section 5(a)(4)         Matters Referred to Prosecutive Authorities……………………………………….                      7

Section 5(a)(5)         Instances Where Information Was Refused or Not Provided……………………                  *

Section 5(a)(6)         List of Audit Reports Issued…………………………………………………………                               2

Section 5(a)(7)         Summary of Significant Reports…………………………………………………….                              3

Section 5(a)(8)         Audit Reports - Questioned Costs….………………………………………………                             2

Section 5(a)(9)         Audit Report - Funds Put to Better Use.……….……………………………….…                        2

Section 5(a)(10)        Prior Audit Reports Unresolved…………………………………………..………..                            ∗

Section 5(a)(11)        Significant Revised Management Decisions……………………………………..                         ∗

Section 5(a)(12)        Significant Management Decisions with which the OIG Disagreed….…………              ∗


        ∗   None this period.
                                          INTRODUCTION
THE NATIONAL ENDOWMENT FOR THE HUMANITIES

In order "to promote progress and scholarship in the humanities and the arts in the United States," Congress
enacted the National Foundation on the Arts and the Humanities Act of 1965. This act established the
National Endowment for the Humanities as an independent grant-making agency of the federal government
to support research, education, and public programs in the humanities. Grants are made through four
divisions - Research Programs, Education Programs, Preservation and Access, and Public Programs -- and
three offices -- Challenge Grants, Enterprise, and Federal-State Partnership.

The act that established the National Endowment for the Humanities says "The term `humanities' includes,
but is not limited to, the study of the following: language, both modern and classical; linguistics; literature;
history; jurisprudence; philosophy; archaeology; comparative religion; ethics; the history, criticism, and
theory of the arts; those aspects of social sciences which have humanistic content and employ humanistic
methods; and the study and application of the humanities to the human environment with particular attention
to reflecting our diverse heritage, traditions, and history and to the relevance of the humanities to the current
conditions of national life.


THE OFFICE OF INSPECTOR GENERAL

The NEH’s Office of Inspector General was established on April 9, 1989, in accordance with the
Inspector General Act Amendments of 1988, Public Law 100-504. In this legislation, Congress established
Offices of Inspector General in several departments and in thirty-three agencies, including NEH. The NEH
Inspector General (IG) is appointed by the Chairman. The independence of the IG is an important aspect of
the Act. For example, the IG:

•   cannot be prevented from initiating, carrying out, or completing an audit or investigation, or from issuing
    any subpoena;

•   has access to all records of the agency;

•   reports directly to the Chairman, and can only be removed by the Chairman, who must promptly advise
    Congress of the reasons for the removal; and

•   reports directly to Congress.

The Act states that the Office of Inspector General is responsible for (1) conducting audits and
investigations; (2) reviewing legislation; (3) recommending policies to promote efficiency and effectiveness;
and (4) preventing and detecting fraud, waste, and abuse in the operations of the agency. The Inspector
General is also responsible for keeping the Chairman and Congress fully and currently informed of problems
and deficiencies in the programs and operations.

The OIG staff consists of the Inspector General, a Deputy Inspector General for Audits, two auditors, and a
secretary. The OIG and the Office of General Counsel (OGC) have a Memorandum of Understanding
detailing the procedures for the OIG to be provided with OGC legal services. Investigations are handled by
the Inspector General, an auditor and as required by the agency’s Deputy General Counsel (currently
vacant).




NEH OIG Semiannual Report                           1                                        March 2000
               AUDIT, SURVEY, AND INSPECTION ACTIVITIES
This office is responsible for external and internal audits. External auditing includes grants, pre-award
accounting system surveys, review of OMB Circular A-133 reports, and on-site quality assurance reviews of
CPA work papers. Internal efforts consists of audits, inspections, and reviews/evaluations of the NEH
administrative, programmatic, and financial operations.

During this reporting period, the OIG issued the last three audit reports of the NEH panel process. We also
issued a post-award accounting system survey that was originally a ″Hotline″ call. In addition, we received
and processed 154 OMB Circular A-133 audit reports and issued thirteen memorandum reports containing
findings (see Single Audit Act Reviews).

                                    LIST OF AUDIT REPORTS ISSUED

The following is a list of audit/survey reports issued by the OIG during the reporting period. The Act requires
us to report on the “Dollar Value of Recommendations that Funds Be Put to Better Use,” and the ″Total
Dollar Value of Questioned Costs (including a separate category for the dollar value of unsupported costs).”
None are reported during this period.

INTERNAL AUDITS                                           Report Number              Date Issued

Limited Audit of the Peer Review Process                  OIG-00-01 (LIA)            10/28/99
Division of Research and Education

Limited Audit of Peer Panel Review Process                OIG-99-04 (LIA)            10/18/99
Office of Challenge Grants

Limited Audit of the Peer Review Panel Process            OIG-99-05 (LIA)            10/13/99
Division of Preservation and Access


EXTERNAL REVIEWS
Virgin Islands Humanities Council                       OIG-00-01 (ER)                 03/30/00
Newport Historical Society                              OIG-00-02 (ER)                 03/31/00

QUALITY ASSURANCE REVIEWS
Review of Independent Public Accountants (IPA)
Workpapers for 1995 and 1996 Financial
Statements and Compliance Audit

-Virgin Islands Humanities Council, Inc.                OIG-00-101(QAR)                12/03/99
-Amerika Samoa Humanities Council, Inc.                 OIG-00-102(QAR)                03/31/00

SINGLE AUDIT ACT REVIEWS
Missouri Humanities Council                             OIG-00-01 (CAA)                03/31/00
Oregon Council for the Humanities                       OIG-00-02 (CAA)                03/31/00
Utah Humanities Council                                 OIG-00-03 CAA)                 03/31/00
Newberry Library                                        OIG-00-04 (CAA)                03/31/00
Dartmouth College                                       OIG-00-05 (CAA)                03/31/00
Montana Committee for Humanities                        OIG-00-06 (CAA)                03/31/00
Massachusetts Foundation for the Humanities, Inc.       OIG-00-07 (CAA)                03/31/00
Ohio Historical Society                                 OIG-00-08 (CAA)                03/31/00
Minnesota Humanities Commission                         OIG-00-09 (CAA)                03/31/00
Walters Art Gallery                                     OIG-00-10 (CAA)                03/31/00
Walters Art Gallery                                     OIG-00-11 (CAA)                03/31/00
Nevada Humanities Committee                             OIG-00-12 (CAA)                03/31/00
New Jersey Council for the Humanities                   OIG-00-13 (CAA)                03/31/00


NEH OIG Semiannual Report                          2                                       March 2000
                                   SUMMARY OF REPORTS ISSUED

INTERNAL AUDITS

Limited Audit of Peer Panel Review Process                                                  OIG-00 01(LIA)
 Former Division of Research and Education (RED)                                     Dated October 28, 1999
 (for Fellowships for University Teachers and Fellowships for
 College Teachers and Independent Scholars)

The objectives of the limited audit were:

•   To determine if verbal instructions on Conflict of Interest and Confidentiality were consistent with written
    instructions sent to panelists and in compliance with NEH written policy.

•   To assess the adequacy of the verbal instructions.

•   To determine if opening remarks were complete, covering all of the main points in RED's script/check
    list.

•   To observe the panel discussions to determine if the proposals are adequately debated. (Our
    observations were to see if the debates covered the criteria as set forth in the guidelines, not to judge
    the scholarly content of the debates.)

•   To assess the staff's role during the panel discussions. This assessment was designed to answer two
    questions. Did staff act as moderators and raise questions that would help the panelists debate the
    applications within the framework of the stated criteria? Or did staff sway or influence the debate?

Our limited audit was conducted in accordance with ″government auditing standards,″ issued by the
Comptroller General of the United States.

Our limited audit revealed that the peer panel review process in RED met the audit objectives.


Limited Audit of Peer Panel Review Process                                                  OIG-99-05 (LIA)
Division of Preservation and Access                                                  Dated October 13, 1999

The objectives of our limited audit were to:

•   Determine if verbal instructions on Conflict of Interest were consistent with the written instructions sent
    to panelists and to assess the adequacy of the instructions;

•   Determine if verbal instructions on Confidentiality were consistent with the written instructions sent to
    panelists and to assess the adequacy of the instructions;

•   Determine if other verbal instructions were consistent with materials sent to panelists;

•   Determine if opening remarks covered all of the main points in the General Outline for Panel
    Introduction prepared by the Division of Preservation and Access;

•   Determine if the proposals are subjected to thorough debates (i.e., whether or not the debates address
    the evaluation criteria as set forth in the Preservation and Access guidelines); and

•   Observe and assess staff participation during the panel discussions.

Our limited audit was conducted in accordance with ″government auditing standards,″ issued by the
Comptroller General of the United States.

NEH OIG Semiannual Report                           3                                       March 2000
Our limited audit revealed that the peer panel review process in the Division met the audit objectives. We
made several recommendations to strengthen the panel review process.

Limited Audit of Peer Panel Review Process                                                  OIG-00-04 (LIA)
Office of Challenge Grants                                                           Dated October 18, 1999

The objectives of our limited audit were to:

•   Determine if verbal instructions on Conflict of Interest were consistent with the written instructions sent
    to panelists and to assess the adequacy of the instructions;

•   Determine if verbal instructions on Confidentiality were consistent with the written instructions sent to
    panelists and to assess the adequacy of the instructions;

•   Determine if other verbal instructions were consistent with materials sent to panelists;

•   Determine if opening remarks covered all of the main points in the Introductory Remarks to Panelists
    outline prepared by the Office of Challenge Grants;

•   Determine if the proposals are subjected to thorough debates (i.e., whether or not the debates address
    the evaluation criteria as set forth in the Challenge Grants guidelines); and

•   Observe and assess staff participation during the panel discussions.

Our limited audit was conducted in accordance with ″government auditing standards,″ issued by the
Comptroller General of the United States.

Our limited audit revealed that the peer panel review process in the Division met the audit objectives. We
made several recommendations to strengthen the panel review process.


EXTERNAL AUDITS

Virgin Island Humanities Council                                                            OIG-00-01 (ER)
                                                                                     Dated March 30, 2000

The objective of this review was to determine the reasonableness of the auditor's work and the extent to
which we could rely on it. Our work was performed in accordance with Government Auditing Standards.

We found the work conducted by the auditor was not in all respects done in accordance with applicable
standards and did not fully meet the requirements of OMB Circular A-133. We provided recommendations
and informed the Council that we would not accept such a report again.

Newport Historical Society                                                                  OIG-00-03 (ER)
                                                                                     Dated March 30, 2000

The OIG performed a limited scope review of the Newport Historical Society (the Society). The objectives of
the review were to determine if the Society was in compliance with the National Endowment for the
Humanities (NEH) General Grant Provisions for Organizations (the Provisions) with regards to personnel
activity reports and budget controls. Our review was for grant GM-24712-92 and was a follow-up to the site
visit of May 28, 1999.

We were able to allow the costs charged to the grant project. In addition, we made several
recommendations for the Society to improve its accountability of federal funds. We notified NEH that before
awarding any further funds to the Society that an accounting system review be performed.




NEH OIG Semiannual Report                           4                                       March 2000
                                     SINGLE AUDIT ACT REVIEWS


We receive audit reports on NEH grantee organizations from other federal agencies, state and local
government auditors, and independent public accountants. These reports generally are the result of OMB
Circular A-133 audits. The single audits report on financial activities, compliance with laws and regulations,
and grantee management (internal) controls over federal expenditures. In most instances, the cognizant
agency is the Department of Health and Human Services, the federal agency with the predominant financial
interest.

During this period we received and processed 154 audit reports. Thirteen reports contained findings. We
are continuing our follow-up work on these. In addition, we expended considerable effort in determining
which grantees have not submitted OMB Circular A-133 audit reports. Several organizations do not have
sufficient funds for audits by independent public accountants. The OIG is working with them and their
independent public accountants to develop an appropriate cost-effective audit approach. We expect to
receive all the reports by June 30, 2000.

To ensure that we receive OMB Circular A-133 audit reports from the state humanities councils in a timely
manner, we sent an e-mail message to all of the executive directors and Board chairmen. We will continue
to send reminders to the State Councils.


                                A-133 COMPLIANCE SUPPLEMENT

State humanities councils that receive at least $300,000 per year are subject to Office of Management and
Budget Circular A-133, “Audits of States, Local Governments, and Non-Profit Organizations″. We have
worked with OMB in developing a compliance supplement for state humanities councils that will be part of
the government-wide guidance. Our submission has been included in the OMB Compliance Supplement.


                                  Y2K COMPUTING CHALLENGE

During the past two years we have been monitoring the agency's Year 2000 compliance program. NEH's
Office of Information Resources Management (OIRM) has resolved all major problems and only had to deal
with some very minor issues. Operations at NEH continued without interruption. We commend them for this
success.




NEH OIG Semiannual Report                          5                                      March 2000
                                INVESTIGATION ACTIVITY
The Inspector General Act provides the authority for the Office of Inspector General to investigate possible
violations of criminal or civil laws, administrative regulations, and agency policies, which relate to the
programs and operations of the NEH. The OIG Hotline, E-mail address, and regular mail are efficient,
effective means of receiving allegations or complaints from employees, grantees, contractors, or the
general public. The OIG has obtained assistance from other OIGs, the Federal Bureau of Investigation, the
Postal Inspection Service, and other investigative entities as applicable.

When the OIG receives a complaint or allegation of a criminal or administrative violation, we make a
determination of the appropriate action to take. This can be an audit, investigation, a referral to another
NEH office or division, or a referral to another federal agency.

Since the Reduction-In-Force that occurred in the last quarter of calendar year 1995, NEH employees have
contacted the OIG on matters that should be brought to the attention of the Office of Human Resources and
the Office of Equal Opportunity.

As of October 1, 1999, one matter was open in the Investigation branch of the OIG. This was closed during
the current period. During the six months ending March 31, 2000, we received 19 ″Hotline" contacts.


One Case Open at Beginning and Closed

We investigated an allegation that an employee was given an illegal ″early out″. Also, that a job
announcement was specifically written for a particular person. Our investigation, with the assistance of two
Office of Personnel Management departments, disclosed no illegal activity. The matter was closed.

Contacts During This Period

During this reporting period we received 19 telephone, e-mail, letter or walk-in contacts. Three contacts
provided the OIG about unsolicited pornography e-mail received by NEH staff. We were unable to trace the
e-mail to the original sender and therefore closed all three cases. Seven contacts were from NEH staff that
involved internal agency matters. Of the seven, two concerned panel and application issues and we
monitored these until conclusions were reached. After giving the person advice, we referred them to other
NEH officers or divisions and told them to return to the OIG if the matter was not resolved.

One complaint involved an NEH employee and a person from another agency; we referred the matter to the
appropriate personnel in the other agency. We had one contact by e-mail concerning foster care fraud and
referred this to the Department of Health and Human Services OIG.

We heard from one office concerning several calls they had received from individuals who paid money to a
company to receive a ″free grant.″ NEH was listed as one of the organizations that was supposed to be
giving out ″free grant funds.″ We referred this to the appropriate U.S. Postal Office Inspectors who were
already working on this matter.

In response to one of our e-mail ″posters″ informing employees to contacting the OIG, we received a
allegation that an employee was not working a full 40 hour week. We discussed the situation with the
employee's supervisors and were informed that the person performs all the required work.

One employee complained about publication costs because the agency was disposing of quite a few books,
brochures and pamphlets. We referred this matter to our Audit Division.




NEH OIG Semiannual Report                          6                                        March 2000
Two contacts required full investigations. The first involved an allegation from an employee stating their
supervisor was threatened by another employee. We investigated this matter. We determined that there
was no credible evidence to support the allegation. In the second case, we received a complaint from two
employees of a grantee's staff stating the former executive director mismanaged the organization, including
the federal funds. We are currently looking into this matter.

We received two contacts involving allegations of discrimination. One involved a complaint that the person
was not selected for a position because of age. The other involved an allegation that a minority received a
preference. In both situations, we found that the person selected was fully qualified to be selected. We
counseled both individuals that they had the right to go forward with their allegations as an Equal
Opportunity matter.



                       MATTERS REFERRED TO PROSECUTIVE AUTHORITIES

No new cases were referred for criminal prosecution.


                               HOTLINE AND PREVENTION ACTIVITIES

We maintain a local Hotline phone number, agency E-mail address, and an Internet address. We maintain
all three to provide additional confidentiality for those persons bringing matters to the attention of the OIG.

We continue to issue agency-wide E-mail messages to NEH staff informing them of the violations that
should be reported to the OIG. We use E-mail messages to inform NEH staff about the OIG operations
several times during the year. Posters informing staff to contact the OIG are posted throughout the agency
building.


                  Investigation Activity


Open at beginning of period                                         1

Matters brought to the OIG during the reporting period             19
                                                                   —-

   Total Investigative contacts                                    20

Closed or referred during reporting period                          1
                                                                   —-
Open at end of period                                               1
                                                                    =




NEH OIG Semiannual Report                          7                                        March 2000
                                       OTHER ACTIVITIES
                             INDIRECT COST RATE NEGOTIATIONS/REVIEWS

Grantees are entitled to recover total project costs, both direct and indirect. Indirect costs are those costs of
an organization or institution that are not readily identifiable with a particular project or activity but are
nevertheless necessary to the general operation of the organization or institution and the conduct of the
activities it performs.

The cost of office supplies, general telephone, postage, accounting, and administrative salaries are types of
expenses usually considered as indirect costs. In theory, all such costs might be charged directly; practical
difficulties, however, preclude such an approach. Therefore, they are usually grouped into a common
pool(s) and distributed to those organizational or institutional activities that benefit from them through the
expedient of an indirect cost rate(s).

Cognizant federal agencies approve the rates after reviewing cost allocation plans submitted by grantees.
The approved rate will generally be recognized by other federal agencies.

During this period, we negotiated indirect cost rates with three grantees.


                            INDIRECT COST RATE DESK REVIEW REPORTS ISSUED


Grantee                                                 Report Number               Date Issued

Northeast Document Conservation Center                  OIG-00-01                   11-17-99
The Walters Art Gallery                                 OIG-00-02                   12-22-99
ETV Endowment of South Carolina                         OIG-00-03                   02-24-00




                                    INTRA-AGENCY COOPERATION

In this period OIG staff attended and engaged in various NEH meetings - panel meetings (where grant
applications are reviewed by outside consultants), pre-council meetings (where the program divisions
discuss the panel review results with the chairman and his immediate staff), and the National Council
meeting. In addition, the IG attended the chairman's monthly policy group meetings. Two OIG staff
attended monthly NEH Employee Association Meetings; one is on the executive committee. The staff were
also involved in the review of NEH administrative directives.

The Office of Inspector General contributes to the discussions; however, the office does not participate in
the policy making.


                            PARTICIPATION ON THE EXECUTIVE COUNCIL ON
                                     INTEGRITY AND EFFICIENCY

The Executive Council on Integrity and Efficiency (ECIE) was established by the President in 1992 to
coordinate and implement government-wide activities to combat fraud and waste in federal programs and
operations. OIG staff regularly attend ECIE meetings and provide information to the ECIE.




NEH OIG Semiannual Report                           8                                        March 2000
                             REGULATORY AND LEGISLATIVE REVIEWS
The Inspector General Act of 1978, as amended, requires the Office of Inspector General to review
proposed legislation and regulations. The reviews are made to assess whether the proposed legislation or
regulation (1) impacts on the economy and efficiency of Endowment programs and operations, and (2)
contains adequate internal controls to prevent and detect fraud and abuse. During this period we provided
the ECIE with comments on various matters affecting the OIG community.


                                         OIG INTERNET AND INTRANET

The OIG has listed several semiannual reports on the internet. The reports are accessible through the
Inspectors General homepage (http://www.ignet.gov/ignet/internal/neh/html). The reports link to the NEH
homepage (http://www.neh.gov/html/oig/. To access the semiannual reports from outside the NEH, enter
the URL http://www.ignet.gov.

To enhance NEH staff's recognition of our mission and responsibilities, we provide links to several other
federal agencies such as the Office of Management and Budget, the General Accounting Office, the Office
of Government Ethics, and the IGNET.


                                         A-133 WAIVER ISSUED BY NEH

NEH has waived the A-133 audit requirement for grants awarded in the Centers Program and the
International Program. The reasons for dropping the A-133 audit requirement for Centers grants ".... was
the fact that our support of these projects was limited to publicity, selection costs, and the actual fellowship
stipends, with the majority of funding going to stipends. Since we know who are selected as fellows, what
their projects are, and how much they receive in the way of NEH support, we saw no reason to insist on an
audit of these grants. We are now recommending the same approach for the International Program
because, except for a small amount of funding for administrative costs, the use of NEH funds is limited to
publicity, selection costs and stipends." 1/

OMB Circular A-133 is guidance on how to implement the Single Audit Act Amendments of 1996. It is the
OIG's position that NEH does not have any provision in its reauthorizing legislation or its annual
appropriation that gives it authority to waive A-133. We have requested that the NEH Office of General
Counsel provide the OIG with an opinion on the propriety of the A-133 waiver. We expected a written
opinion by the end of May 1999. We understand it will be available prior to December 31, 1999.


1/ Memorandum of Director of Grants Office to Deputy Chairman.




NEH OIG Semiannual Report                                9                                   March 2000
                                               TABLE I
                                  INSPECTOR GENERAL-ISSUED REPORTS
                                 WITH QUESTIONED COSTS DOLLAR VALUE

                                                                   Number      Questioned      Unsupported
                                                                  Of Reports     Cost             Cost
A. For which no management decision has been made by the             -0-         $ -0-           $ -0-
   commencement of the reporting period.

B. Which were issued during the reporting period                      -0-          -0-                 - 0-

                            Subtotals (A+B)                           -0-        $ -0-             $ - 0-

C. For which a management decision was made during the
   reporting period.

         i.       Dollar value of disallowed costs.                   -0-       $ -0-           $ - 0-

         ii.      Dollar value of costs not disallowed (grantee       -0-       $ -0-           $ - 0-
                  subsequently supported all costs).


D. For which no management decision has been made by                  -0-       $ -0-           $ - 0-
   the end of the reporting period
.

E. Reports for which no management decision was made                  -0-       $ -0 -             $   -0-
   within six months of issuance.




                                          TABLE II
                             INSPECTOR GENERAL-ISSUED REPORTS
                    WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE


                                                                                      Number            Dollar
                                                                                     of Reports         Value

A. For which no management decision has been made by the commencement of                 -0-            $-0-
   the reporting period.

B. Which were issued during the reporting period.                                        -0-            $ -0 -

C. For which a management decision was made during the reporting period.                 -0-           $-0-

         i.       Dollar value of recommendations that were agreed to by                 -0-            $-0-
                  management.

         ii.      Dollar value of recommendations that were not agreed to by             -0-            $-0-
                  management.

D. For which no management decision was made by the end of the reporting period.         -0-            $-0



NEH OIG Semiannual Report                             10                              March 2000
                             GLOSSARY OF AUDIT TERMINOLOGY
Questioned Cost - A cost that is questioned by the OIG because of an alleged violation of a provision of a
law, regulation, contract, grant, cooperative agreement, or other agreement or document governing the
expenditure of funds; because such cost is not supported by adequate documentation; or because the
expenditure of funds for the intended purpose is unnecessary or unreasonable.

Unsupported Cost - A cost that is questioned because of the lack of adequate documentation at the time of
the audit.

Disallowed Cost - A questioned cost that management, in a management decision, has sustained or
agreed should not be charged to the government.

Funds Be Put To Better Use - Funds, which the OIG has disclosed in an audit report, that could be used
more efficiently by reducing outlays, de-obligating program or operational funds, avoiding unnecessary
expenditures, or taking other efficiency measures.

Management Decision - The evaluation by management of the audit findings and recommendations and
the issuance of a final decision by management concerning its response to such findings and
recommendations.

Final Action - The completion of all management actions, as described in a management decision, with
respect to audit findings and recommendations. When management concludes no action is necessary, final
action occurs when a management decision is made.

Source: Excerpt from Section 106(d) of the Inspector General Act Amendments of 1988 (P.L. 100-504).




NEH OIG Semiannual Report                        11                                     March 2000
                     THE OFFICE OF INSPECTOR GENERAL

                                serves American taxpayers
                          by investigating reports of waste, fraud,
                       mismanagement, abuse, integrity violations or
                        unethical conduct involving federal funds.


                             To report any suspected activity
                    Involving NEH programs, operations, or employees


                                        Please Call

                                      (202) 606-8423

                                            or,

                                          Write


                       Office of Inspector General-Hotline
                     National Endowment for the Humanities
                          1100 Pennsylvania Ave. N.W., Room 419
                                 Washington, DC 20506

                                   FAX: (202) 606-8329


                                ELECTRONIC MAIL HOTLINE
                                     OIG@neh.gov




• Government employees are protected from reprisal

• Caller can remain anonymous

• Information is confidential
